                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audits and Inspections




AUDIT REPORT
Procurement of Support Service Contracts for
the Office of Energy Efficiency and Renewable
Energy




 OAS-M-14-10                          August 2014
                                 Department of Energy
                                   Washington, DC 20585

                                        August 18, 2014


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
                 AND RENEWABLE ENERGY
               DIRECTOR, OFFICE OF MANAGEMENT



FROM:                    George W. Collard
                         Assistant Inspector General
                           for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Procurement of Support Service
                         Contracts for the Office of Energy Efficiency and Renewable Energy"

BACKGROUND

The Department of Energy's (Department) Office of Energy Efficiency and Renewable Energy
(EERE) leads the Department's efforts to develop and deliver market-driven solutions for
energy-saving homes, buildings and manufacturing; sustainable transportation; and renewable
electricity generation. To accomplish its mission, EERE relies on support service contractors to
supplement its Federal workforce, and provide program offices with technical, management, and
maintenance and operations support. In Fiscal Year 2012, EERE's workforce consisted of
approximately 470 support service contractor and 688 Federal positions. EERE's open support
service contract obligations totaled over $628 million as of October 2013.

Contracting officers are delegated the authority to enter into, administer and/or terminate
contracts by the Department's heads of contracting activities that have the broad authority to
manage contracting functions. Heads of contracting activities retain the responsibility for
ensuring compliance with applicable laws, regulations, policies and procedures. They typically
reside at individual program or field-activity levels, but may provide procurement services to
multiple program offices. EERE's support service contracts were managed by three separate
heads of contracting activities, including Headquarters Procurement Services (Headquarters
Procurement), the National Energy Technology Laboratory and EERE's Golden Field Office.

Due to EERE's reliance on support service contractors and the significant amount spent on such
contracts, we initiated this audit to determine whether EERE's support service procurement
activities were managed effectively and efficiently.

RESULTS OF AUDIT

Nothing came to our attention to indicate that controls were not in place over the management of
EERE's support service procurement activities. In general, EERE's support service contracts
included in our review were competitively awarded, consistently applied established labor rates
for labor hours billed, and incurred costs in accordance with contract terms. While our review
did not identify material concerns regarding EERE's support service procurement activities, we
identified weaknesses in contract documentation that warrant management attention.

In total, we reviewed four support service contracts with obligations of approximately
$171 million. Three of these four contracts were managed by Headquarters Procurement and the
fourth by the Golden Field Office. Through the application of alternative procedures, we were
able to obtain and review needed supporting documentation from sources in addition to the
official contract files. It was necessary to look beyond the official contract files and the
contracting officer representatives' (COR) administration files because documentation contained
in those files did not constitute a complete history of contractual actions that was, in our view,
sufficient to permit contracting officers to exercise their responsibilities. Contracting officers are
responsible for effectively administering all contract actions and safeguarding the Government's
interest in its contractual relationships. Therefore, contracting officers should have access to a
complete history of procurement transactions to make informed decisions at each step in the
acquisition process.

Official Contract Files

The Department's official contract files, which were maintained in the Strategic Integrated
Procurement Enterprise System (STRIPES), did not contain a complete history of contractual
actions, as required by Federal regulations. The Department's Acquisition Guide permitted the
use of task assignments under each task order of the contract. Task orders are normally the level
at which work scope and funding are controlled. We found, however, that for the three support
service contracts managed by Headquarters Procurement, STRIPES did not include task
assignment documentation that described the specific work to be performed by the contractors;
required deliverables; periods of performance; and allocations of the overall contract's funding
and labor hours needed to satisfy the task assignments.1

We found that contract-related documentation, prepared by the Headquarters Procurement
Contracting Office and included in STRIPES, only contained broad statements of work that
obligated funding and identified the number of labor hours expected to be consumed under each
contract. Contracting officers delegated the responsibility for issuing task assignments to the
CORs, who were outside the contracting office. As such, the official contract files did not
contain detailed information regarding the actual tasks assigned to contractors, specific
deliverables and periods of performance for those tasks, or the contract funding and labor hours
allocated to the individual tasks. Instead, some task assignment documentation was separately
maintained by the CORs and was often incomplete or inadequate. We concluded that task
assignment documentation was clearly an integral part of the contract that should have been
included in STRIPES.



1
    The fourth support service contract included in our sample, managed by the Golden Field Office, did not have a
    similar issue because it did not use task assignments.


                                                           2
The Headquarters Procurement Contracting Office did not include task assignment
documentation in STRIPES, in part, because memorandums from contracting officers
designating the CORs' responsibilities only required them to maintain task assignments in the
official COR administration files. Further, the CORs were only required to furnish a copy of
contract-related documentation to the Contracting Officer upon request instead of when
prepared, as suggested by the Department's Acquisition Guide. A Headquarters Procurement
contracting officer told us task assignments were not required to be included in STRIPES
because internal guidance for STRIPES' file maintenance was not fully developed at the time the
contracts were awarded.

Without including task assignment documentation in STRIPES, there were a large number of
important documents related to EERE's support service contracts managed by Headquarters
Procurement that were not included in the official contract files. Contracting officers must have
knowledge of and readily available access to all contractual actions to exercise Federal
Acquisition Regulation (FAR) 1.602 responsibilities for ensuring performance of all necessary
actions for effective contracting, ensuring compliance with the terms of the contract, and
safeguarding the interests of the United States in its contractual relationships. FAR 4.801 also
required the head of each contracting office to establish contract files containing a complete
history of contractual actions. Additionally, the Government Accountability Office's (GAO)
Standards for Internal Control in the Federal Government requires clear documentation of
transactions and significant events that is properly managed, maintained and readily available for
examination.

Prior Office of Inspector General audits identified similar weaknesses related to inadequate
documentation. Our audit report on The Department of Energy's Management of Contractor
Responsibility Determinations (OAS-M-13-07, September 2013), found official contract files
were not always sufficiently maintained because management did not ensure internal controls
were consistently implemented by procurement personnel. Similarly, our audit report on The
Department of Energy's Energy Innovation Hubs (OAS-M-13-08, September 2013), found that
required certifications were not maintained in the official award file, making them unavailable
for review, because of poor recordkeeping practices.

In response to this audit, Headquarters Procurement issued interim guidance in June 2014. That
guidance states that the Contracting Officer will issue task assignments for new contracts and
include supporting documentation in STRIPES. For existing contracts where CORs issue task
assignments, the guidance requires CORs to send the Contracting Officer all task assignments to
be added to STRIPES.

COR Administration Files

The COR administration files did not contain complete documentation of COR actions as
required for all four of the EERE support service contracts we reviewed. FAR 1.604 required the
COR to maintain a file for each assigned contract that included, at a minimum, documentation of
COR actions taken in accordance with the delegation of authority. We found CORs had not
prepared memorandums for the record of all meetings, trips, and telephone conversations related
to the contract as required in memorandums issued by the Contracting Officer that designated

                                                3
COR responsibilities. Also, CORs had not consistently documented contract-related activities
such as communication with technical monitors and/or program officials who the CORs relied on
to monitor the contractors' day-to-day performance, and review and inspect deliverables prior to
invoice approval. Additionally, for at least one of the three EERE support service contracts
managed by Headquarters Procurement, CORs had not consistently prepared documentation
supporting changes to funding allocated on task assignments, and, in some instances, moved
allocated funding between task assignments with only an annotation on the spreadsheet used to
track the funding.

CORs did not prepare documentation, at least in part, because of the time involved. One COR
told us documentation was not prepared for day-to-day conversations because it would require a
significant amount of time. Another COR stated email was used for normal communication and
only informal notes were taken at meetings. Finally, another COR told us funding was moved
between task assignments on the spreadsheets to get the work done and ensure continuity of
service. Although we recognize, and a Contracting Officer told us, preparing documentation for
all meetings, trips and telephone conversations may not be realistic, documentation of contract-
related actions and correspondence must be sufficient to constitute a complete history of
contractual actions. Additionally, we concluded that the expediency gained by moving allocated
funding between task assignments with only an annotation on the spreadsheet did not outweigh
the GAO internal control standard that requires clear documentation of all transactions and
significant events to ensure accountability for the stewardship of Government resources.

Although CORs moved funding between task assignments, we found that such reallocations
were within the same task orders and did not affect the overall obligation authority of the
contract.

In response to our report, EERE officials stated that they will develop new procedures to
document significant COR communications and ensure the documentation is sent to the
Contracting Officer for inclusion in the official contract files. Additionally, Headquarters
Procurement's interim guidance requires CORs to ensure that they sufficiently document their
communication and forward that documentation to the Contracting Officer.

Impact on EERE's Support Service Procurement Activities

In the absence of a complete history of contractual actions in STRIPES, contracting officers and
heads of contracting activities may not have the requisite knowledge needed to effectively and
efficiently carry out their responsibilities. A complete history provides a basis for informed
decisions at each step in the acquisition process, supporting actions taken, providing information
for reviews and investigations, and furnishing essential facts in the event of litigation or
congressional inquiries.

OTHER MATTERS

As part of our audit, we examined the circumstances surrounding two allegations we received
regarding EERE procurement activities.



                                                4
Support Service Contract Allegations

One allegation contained multiple issues related to the management of an EERE support services
contract including allegations that: contract obligations were overspent; some activities
performed by the contractor were inappropriate; some activities billed directly should have been
included in indirect rates; and funding allocated under one task was being inappropriately used to
fund other tasks. We were not able to substantiate the allegations. Specifically, we found:

       Contract obligations established by contracting officers were not overspent. We found
        that in some instances, the contractor had overspent task assignment funding allocated
        by the COR and that COR had subsequently adjusted the allocations. However, we
        found no evidence this practice was prohibited by law or regulation as long as the total
        funding allocated on task assignments did not exceed the authorized amount obligated
        for the underlying task order.

       Contractor activities, such as consulting on justification for a bridge contract and
        budget-related activities were not inappropriate because these activities were within the
        support service contract's scope of work.

       Activities billed directly to the contract were costs specifically associated with that
        contract and were not duplicative of indirect rates. Activities included in indirect rates
        were higher-level contractor activities that were not directly associated with the
        contractor's task assignments.

       Funding allocated against one task assignment was used to fund other tasks without
        clear documentation supporting the change. As previously discussed in this report,
        funding was moved between task assignments, however, the reallocations were within
        the same task order and authorized obligations were not exceeded. We found no
        evidence that moving funding among task assignments within the same task order was
        prohibited by law or regulation. Also, as previously discussed we did find that CORs
        did not consistently prepare documentation supporting changes to task assignment
        funding.

Executive Salaries and Bonuses Allegation

Another complaint alleged that salaries and bonuses received by four National Renewable
Energy Laboratory executives was larger than standard during a salary freeze. We did not
substantiate this allegation. During the period alleged, we found executives had not received
increased Department-reimbursed salaries and the Department had not reimbursed the contractor
for bonuses.

RECOMMENDATIONS

To address identified areas warranting management attention and improve the effectiveness and
efficiency of EERE support service procurement activities, we recommend that the Assistant


                                                 5
Secretary for Energy Efficiency and Renewable Energy and the Director, Office of Management:

    1. Ensure documentation, such as task assignments prepared outside the contracting office,
       is entered into and maintained in STRIPES, the Department's official contract file; and

    2. Ensure communication is sufficiently documented to constitute a complete history of
       contractual actions and forwarded to the contracting office for inclusion in STRIPES.

MANAGEMENT REACTION

Management concurred with the report's recommendations and identified planned actions as well
as actions that had already been completed to address the recommendations.

EERE stated that it no longer awards task assignment type contracts, and for the existing
contracts, will develop procedures to ensure documentation such as task assignment memos are
recorded in STRIPES. In addition, EERE stated it will develop new procedures to document
significant COR communications and ensure the documentation will be sent to the Contracting
Officer for inclusion in the official contract files.

The Office of Management informed us that Headquarters Procurement issued interim guidance
in June 2014, to address the recommendations and plans to issue final guidance by November
2014.

Management's formal comments are included in Attachment 3.

AUDITOR COMMENTS

Management's corrective actions are responsive to the report's recommendations.

Attachments

cc: Deputy Secretary
    Chief of Staff




                                              6
                                                                                  Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Office of Energy Efficiency and
Renewable Energy's (EERE) support service procurement activities were managed effectively
and efficiently.

SCOPE

We conducted the audit from October 2013 through August 2014, at the Department of Energy's
heads of contracting activities at Headquarters Procurement Services (Headquarters
Procurement) in Washington, DC, and at the Golden Field Office in Golden, Colorado. Our
audit focused on EERE's support service procurement activities, and salaries and bonuses
received by National Renewable Energy Laboratory executives. The audit was conducted under
the Office of Inspector General Project Number A13DN059.

METHODOLOGY

To accomplish our audit objective, we:

       Reviewed laws, regulations, policies and procedures applicable to support service
        procurement activities.

       Reviewed relevant prior Office of Inspector General and Government Accountability
        Office reports.

       Interviewed key personnel from the Department of Energy's heads of contracting
        activities at Headquarters Procurement and the Golden Field Office.

       Interviewed EERE's contracting officer representatives assigned to support service
        contracts selected for review.

       Judgmentally selected four EERE support service contracts managed by two of the three
        heads of contracting activities EERE used to obtain procurement services. Three of the
        four selected contracts were managed by Headquarters Procurement and the fourth by
        EERE's Golden Field Office. We did not review any support service contracts managed
        by the National Energy Technology Laboratory. These four selected contracts totaled
        approximately $171 million out of the over $628 million in open EERE support service
        contract obligations. The 4 selected contracts represent four contractors that were
        judgmentally selected out of the 16 identified EERE support service contractors based
        on such factors as contract dollar value, heads of contracting activities managing the
        contract, and allegations received. Because selection was based on a judgmental
        sample, results and overall conclusions are limited to the selected contracts.



                                               7
                                                                                    Attachment 1


       Reviewed pre-award and post-award aspects of the four judgmentally selected support
        service contracts to include: award procedures; contract type; consideration of past
        performance; if costs were allowable, allocable and reasonable; if costs claimed were
        appropriate and reasonable for task performed; and monitoring of award. In performing
        our testing of allowable costs, we selected a stratified random sample of 47 invoices
        totaling approximately $23.5 million out of a population of 283 invoices totaling
        approximately $139 million for testing. A confidence level of 90 percent, a precision
        level of plus or minus 5 percent, and an expected error rate of 0 percent was used to
        determine the sample size. No material errors were identified in our sample.

       Reviewed and analyzed two allegations received. Specifically, we reviewed the
        judgmentally selected contracts to determine whether contract obligations had been
        overspent, the contractor performed inappropriate activities, indirect costs were
        inappropriately included in direct costs, and funding allocated to one task was
        inappropriately used to fund other tasks. Additionally, we reviewed the salaries and
        bonuses of selected executives at the National Renewable Energy Laboratory to
        determine whether they were larger than allowed during a period of salary freeze.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, the audit included tests
of controls and compliance with laws and regulations to the extent necessary to satisfy the
objective. We considered the GPRA Modernization Act of 2010 as necessary to accomplish the
objective, and determined the Department of Energy had established performance goals to
improve contract management and oversight. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We conducted a reliability assessment of computer-processed data relevant to our
audit objective and deemed the data to be sufficiently reliable.

An exit conference was held on August 11, 2014.




                                                8
                                                                                 Attachment 2


                                   PRIOR REPORTS

   Audit Report on The Department of Energy's Management of Contractor Responsibility
    Determinations (OAS-M-13-07, September 2013). This review found important
    procurement documentation used in determining a bidder's responsibility was not always
    included in the official contract files as required by the Department of Energy's
    (Department) policies and procedures. Specifically, the Department's Headquarters
    Procurement Services and the National Nuclear Security Administration's Office of
    Acquisition Management in the Albuquerque Complex had not always sufficiently
    maintained official contract files to record actions undertaken and provide key
    documentation should issues arise with the contract. These issues occurred because
    management did not ensure internal controls were consistently implemented by
    procurement personnel, in accordance with the Federal Acquisition Regulation and the
    Department's Acquisition Guide.

   Audit Report on The Department of Energy's Energy Innovation Hubs (OAS-M-13-08,
    September 2013). This review identified weaknesses in the internal controls related to
    recordkeeping/document retention. Specifically, Department officials did not ensure
    certifications were maintained in the award files; therefore, certifications were not
    available for review. The absence of conflict of interest certifications was the result of
    poor recordkeeping practices by the Department.




                                            9
                      Attachment 3


MANAGEMENT COMMENTS




        10
     Attachment 3




11
     Attachment 3




12
                                         FEEDBACK

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
